<html>
<title> - KEEPING OUR SIGHTS ON MARS PART 2: STRUCTURING A MOON-MARS PROGRAM FOR SUCCESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   KEEPING OUR SIGHTS ON MARS PART 2:
                    STRUCTURING A MOON-MARS PROGRAM
                              FOR SUCCESS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2019

                               __________

                           Serial No. 116-54

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-272PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  PETE OLSON, Texas
CHARLIE CRIST, Florida               MICHAEL WALTZ, Florida
JENNIFER WEXTON, Virginia
VACANCY
                         
                         C  O  N  T  E  N  T  S

                           November 13, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written statement............................................    15

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written statement............................................    17

                               Witnesses:

Lieutenant General Thomas P. Stafford, USAF (Ret.); Member, 
  National Academy of Engineering; Chairman, NASA ISS Advisory 
  Committee; Pilot, Gemini 6, Cdr. Gemini 9; Cdr. Apollo 10, Cdr. 
  Apollo/ Apollo-Soyuz Test Program; Former USAF Deputy Chief of 
  Staff for Research, Development, and Acquisition
    Oral Statement...............................................    19
    Written Statement............................................    21

Mr. A. Thomas Young, Former Director, NASA Goddard Space Flight 
  Center; Former President and Chief Operating Officer, Martin 
  Marietta Corporation
    Oral Statement...............................................    33
    Written Statement............................................    35

Discussion.......................................................    42

             Appendix I: Answers to Post-Hearing Questions

Lieutenant General Thomas P. Stafford, USAF (Ret.); Member, 
  National Academy of Engineering; Chairman, NASA ISS Advisory 
  Committee; Pilot, Gemini 6, Cdr. Gemini 9; Cdr. Apollo 10, Cdr. 
  Apollo/ Apollo-Soyuz Test Program; Former USAF Deputy Chief of 
  Staff for Research, Development and Acquisition................    58

Mr. A. Thomas Young, Former Director, NASA Goddard Space Flight 
  Center, Former President and Chief Operating Officer, Martin 
  Marietta Corporation...........................................    63

            Appendix II: Additional Material for the Record

Letter submitted by Representatives Kendra Horn, Chairwoman, and 
  Brian Babin, Ranking Member, Subcommittee on Space and 
  Aeronautics, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    70

 
                   KEEPING OUR SIGHTS ON MARS PART 2:
                    STRUCTURING A MOON-MARS PROGRAM
                              FOR SUCCESS

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2019

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Kendra 
Horn [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Horn [Audio malfunction in hearing room]. Over 
the past 30 years, multiple blue ribbon panels, Presidential 
commissions, and advisory bodies have consistently set the Moon 
and Mars as goals for our human exploration programs. And as 
I've said before, I want Americans to be the first to set foot 
on the Red Planet. Sending Americans to land on and explore the 
surface of Mars is a monumental and worthy goal, one I believe 
we should embrace. Taking that giant leap will require every 
ounce of this Nation's commitment and capability. The critical 
questions before us now are, what decisions and actions are 
needed to structure a Moon and Mars program for sustainability 
and success?
    We're here today to seek the guidance, and perspectives, 
and deep expertise of two eminent witnesses: One Apollo 
astronaut, and lead of one of the foundational studies on the 
Moon-Mars program, and a former industry executive, and 
director of NASA's Goddard Space Flight Center. They both have 
unparalleled depth and breadth of experience in human space 
flight, industry, and NASA programs. They have faced the hard 
technical challenges, seen what has worked and what hasn't. The 
lessons they have learned, and their wisdom are critical to our 
work here today.
    We know that the road to sending American astronauts to 
Mars will require a commitment, dedication, and direction that 
continues across many Congresses and administrations. It is our 
job today to lay out a course that ensures consistency through 
these changes in leadership. Achieving such an audacious 
endeavor requires ambitious, yet realistic expectations, and 
the planning, leadership, workforce, and resources to increase 
the probability of success. Anything else runs the risk of 
perpetuating a cycle of human exploration visions left unmet.
    The United States has led space exploration for over half a 
century. Our leadership role has changed the way we interact 
with the world, and the way the world perceives us. However, we 
cannot take our leadership for granted. Today our Nation has 
been without a domestic capability for sending humans into 
space for nearly a decade. At the same time, there are an 
increasing number of nations and private entities that are 
actively utilizing and growing their investment and 
capabilities in space. It is critical that we move beyond low 
Earth orbit, and that we do it sustainably, affordably, and 
safely. Any void we leave in that regard, others will fill.
    The bottom line is we have a choice. Do we want to lead, or 
do we want to follow? Following is not the legacy our Apollo 
heroes deserve, especially as we celebrate the 50th anniversary 
of the Moon landing, nor is it a future that ensures the 
leadership, safety, and national security of America in space. 
Leading requires consistent purpose and direction, carrying out 
and achieving complex and challenging goals, and leading with 
partner nations and commercial industry in the peaceful 
exploration and uses of outer space.
    Over the past 20 years we have had a taste of the cost and 
effort involved in leading and maintaining long-term human 
space flight activities. Developing, assembling, and operating 
the International Space Station (ISS) took over a decade to 
complete, and represented a U.S. investment of over $80 
billion, and it requires about $3 billion a year to support. 
Getting to the Moon and Mars will require much more. The 
decisions we make today about the structure of the Moon-Mars 
program extend beyond the next handful of years. They are about 
what we set up for future generations.
    In a July 2019 article in Physics Today, one stakeholder 
stated, ``Despite its successes, Apollo was canceled due to its 
expense, and NASA lacked any follow-on program.'' That is why 
it is imperative that we take this opportunity to hear from our 
witnesses on what it takes to create a sustainable and 
effective pathway toward sending humans to the Moon and Mars.
    We, as a Nation, know what we are capable of achieving. 
We've landed humans on the Moon, supported humans living and 
working in space continuously for almost 20 years, landed and 
operated spacecraft on the surface of Mars, and much more. We 
must build on these hard-earned lessons as we look for 
innovative and expeditious ways to achieve our goals, while 
also ensuring the responsible use of taxpayer resources. It is 
our role on the Subcommittee and the Committee to structure a 
program that's in the best interest of the country, and has the 
greatest likelihood of success.
    Before I close, I also want to make clear that our focus 
today, and in other exploration hearings, in no way minimizes 
the importance of NASA's science, space, technology, and 
aeronautics programs. All these missions contribute to NASA's 
success, and we need to ensure that they remain healthy and 
strong. I am excited to hear from our witnesses today, and glad 
to work with my colleagues on both sides of the aisle to ensure 
that NASA and our human space exploration programs are set up 
for success, both now and into the future.
    [The prepared statement of Chairwoman Horn follows:]

    Good afternoon and welcome. I'd like to extend a special 
thank you and welcome to our distinguished witnesses. We're 
honored to have you here with us today to continue an important 
conversation about our human exploration program.
    Over the past 30 years, multiple blue-ribbon panels, 
Presidential Commissions, and advisory bodies have consistently 
set the Moon and Mars as goals for our human exploration 
program. And as I've said before, I want Americans to be the 
first to set foot on the Red Planet.
    Sending Americans to land and explore the surface of Mars 
is a monumental and worthy goal - one I believe we should 
embrace. Taking that giant leap will require every ounce of 
this nation's commitment and capability.
    The critical questions before us now are what decisions and 
actions are needed to structure a Moon and Mars program for 
sustainability and success?
    We're here today to seek the guidance, perspectives, and 
deep expertise of two eminent witnesses-one Apollo astronaut 
and lead on one of the foundational studies on a Moon-Mars 
program, and a former industry executive and Director of NASA's 
Goddard Spaceflight Center. They have unparalleled depth and 
breadth of experience in human space flight, industry, and 
other NASA programs. They have faced the hard technical 
challenges, seen what has worked and what hasn't. The lessons 
they have learned and their wisdom are critical to our work 
today.
    We know that the road to sending American astronauts to 
Mars will require a commitment and direction that continues 
across many Congresses and Administrations. It is our job to 
lay out a course that ensures consistency through those changes 
in leadership.
    Achieving such an audacious endeavor requires ambitious yet 
realistic expectations and the planning, leadership, workforce, 
and resources to increase the probability of success. Anything 
else runs the risk of perpetuating a cycle of human exploration 
visions left unmet.
    The United States has led space exploration for over a 
half-century. Our leadership role has changed the way we 
interact with the world and the way the world perceives us. 
However, we cannot take our leadership for granted.
    Today, our nation has been without a domestic capability 
for sending humans into space for nearly a decade. At the same 
time, there are an increasing number of nations and private 
entities actively utilizing and growing their investments and 
capabilities in space.
    It is critical that we move beyond low Earth orbit and that 
we do it sustainably, affordably, and safely. Any void we leave 
in that regard, others will fill.
    The bottom line is we have a choice: do we want to lead or 
follow? Following is not the legacy our Apollo heroes deserve 
as we celebrate the 50th anniversary of the Moon landing. Nor 
is it a future that ensures the leadership, safety, and 
national security of America in space.
    Leading requires consistent purpose and direction; carrying 
out and achieving complex and challenging goals; and leading 
with partner nations and commercial industry in the peaceful 
exploration and uses of outer space.
    Over the past 20 years, we have had a taste of the cost and 
effort involved in leading and maintaining long-term human 
spaceflight activities. Developing, assembling, and operating 
the International Space Station took over a decade to complete, 
represented a U.S. investment of over $80 billion dollars, and 
requires about $3 billion a year to support. Getting to the 
Moon and Mars will require much more.
    The decisions we make today about the structure of a Moon-
Mars program extend beyond the next handful of years: they are 
about what we set-up for future generations. In a July 2019 
article in Physics Today one stakeholder stated, "Despite its 
success, Apollo was canceled due to its expense, and NASA 
lacked any follow-on program."
    That is why it is imperative that we take this opportunity 
to hear from our witnesses on what it takes to create a 
sustainable and effective pathway toward sending humans to the 
Moon and Mars.
    We as a nation know what we are capable of achieving. We've 
landed humans on the Moon, supported humans living and working 
in space continuously for almost 20 years, and landed and 
operated spacecraft on the surface of Mars. We must build on 
those hard-earned lessons as we look for innovative, 
expeditious ways to achieve our goals while also ensuring 
responsible use of our taxpayer resources.
    It is our role on the Subcommittee and the Committee to 
structure a program that's in the best interest of the country 
and that has the greatest likelihood of success.
    Before I close, I want to make clear that our focus today 
and in other exploration hearings in no way minimizes the 
importance of NASA's science, space technology, and aeronautics 
programs. All of these missions contribute to NASA's success 
and we need to ensure they remain healthy and strong.
    I look forward to our witness's testimonies and I'm 
grateful for the opportunity to work with my colleagues on both 
sides of the aisle to set NASA and our human exploration 
programs up for success now and into the future.

    Chairwoman Horn. I now recognize Ranking Member Mr. Babin 
for an opening statement.
    Mr. Babin. Thank you, Madam Chair, I appreciate it. This 
summer we celebrated the 50th anniversary of the Apollo 11 Moon 
landing, and rather than resting on our laurels, the Trump 
Administration challenged NASA to return to the Moon on its way 
to Mars. This is an audacious goal. For over 15 years, multiple 
Congresses, controlled by both Republicans and Democrats, have 
passed authorization Acts that directed NASA to do the exact 
same thing. All of these Acts directed NASA to explore the 
Moon, Mars, and beyond using a stepping-stone approach. The 
laws directed NASA to efficiently develop technologies and 
architectures that enable further exploration and prevent dead-
end technologies and missions. The laws direct NASA to leverage 
the expertise at NASA centers, and the work done on the Space 
Launch System (SLS) and Orion crew vehicle, that employ 
technologies derived from taxpayer investments in the Space 
Shuttle program.
    Finally, Congress consistently directed NASA to explore 
deep space on a timetable determined by the availability of 
funding. The National Space Council, led by Vice President 
Pence, has adopted those principles for the Trump 
Administration. Space Policy Directive 1, or SPD-1, directs 
NASA to lead an innovative and sustainable program of 
exploration. SPD-1 also directed NASA to lead the return of 
humans to the Moon for long-term exploration and utilization, 
followed by human missions to Mars, and to other destinations. 
The Administration should be commended for subsequently 
challenging NASA to achieve this goal by 2024.
    For several years NASA has lacked a sense of urgency. 
Without a worthwhile near-term goal, our Nation's space 
enterprise lacked consistency and lacked focus. This allowed 
the previous administration to slash early stage funding for 
SLS and Orion, and to propose cuts year over year, stretch out 
development schedules, scale back capabilities, impose unique 
accounting rules like termination liability, and to hold up the 
purchase of long lead items during continuing resolutions. We 
now have bold leadership that is empowering NASA to lean 
forward.
    NASA recently issued a broad Agency announcement soliciting 
proposals for a human landing system within 30 days. NASA 
directed contractors to not only propose landers that can 
launch on commercial launch vehicles. This is despite the fact 
that every space exploration study conducted over the last 40 
years indicated that the most optimal architectures for 
exploring the Moon and Mars require a heavy lift launch vehicle 
similar to SLS. This strategy also fails to leverage the 
investments the taxpayer made over the last decade.
    While I share the frustration and delays to the SLS 
program, switching horses mid-stream is not a wise move at this 
point. The Aerospace Safety Advisory Panel and the National 
Academies have all reported that one of the largest risks to 
the success of our human exploration program is a lack of 
consistency. It's also fair to note that other human 
exploration developments, like commercial crew, are also behind 
schedule.
    At our last Space Subcommittee hearing, NASA said that 
maintaining the 2024 date for a lunar landing is unlikely if 
they do not receive the additional funding that they requested 
in their budget amendment. If a recent House Appropriations 
Committee hearing is any indication, the likelihood of 
receiving additional funding this year is dwindling. If this 
forces NASA to reassess its schedule for returning to the Moon, 
it would provide an opportunity to ensure that they are 
developing the ideal architecture that maximizes mission 
success, and minimizes risk. This could be done by developing 
landers that leverage the investments already made by the 
taxpayers, and national capabilities like SLS and Orion, and 
then relying on the private sector to contribute augmenting 
cargo capabilities, and delivering precursor sized payloads to 
the lunar surface. By this time NASA may have concrete funding 
details, and a more refined acquisition strategy.
    I look forward to working with the Administration and my 
colleagues on both sides of the aisle here in Congress to make 
Artemis a success. I'd like to thank our two very distinguished 
guests and witnesses today for their service, and look forward 
to their testimony. So I yield back the balance of my time, 
Madam Chair. Thank you.
    [The prepared statement of Mr. Babin follows:]

    This summer we celebrated the 50th anniversary of the 
Apollo 11 Moon landing. Rather than resting on our laurels, the 
Trump Administration challenged NASA to return to the Moon on 
its way to Mars. This is an audacious goal.
    For over 15 years, multiple Congresses, controlled by both 
Republicans and Democrats, have passed Authorization Acts that 
directed NASA to do the exact same thing. All of these Acts 
directed NASA to explore the Moon, Mars, and beyond using a 
"stepping stone" approach. The laws directed NASA to 
efficiently develop technologies and architectures that enable 
further exploration and prevent "dead-end" technologies and 
missions. The laws direct NASA to leverage the expertise at 
NASA centers and the work done on the Space Launch System (SLS) 
and Orion Crew vehicle that employ technologies derived from 
taxpayer investments in the Space Shuttle program. Finally, 
Congress consistently directed NASA to explore deep space on a 
timetable determined by the availability of funding.
    The National Space Council, led by Vice President Pence, 
has adopted those principles for the Trump Administration. 
Space Policy Directive 1 (SPD-1) directs NASA to, "[l]ead an 
innovative and sustainable program of exploration." SPD-1 also 
directed NASA to "lead the return of humans to the Moon for 
long-term exploration and utilization, followed by human 
missions to Mars and other destinations."
    The Administration should be commended for subsequently 
challenging NASA to achieve this goal by 2024. For several 
years, NASA has lacked a sense of urgency. Without a worthwhile 
near-term goal, our Nation's space enterprise lacked 
consistency and focus. This allowed the previous Administration 
to slash early-stage funding for SLS and Orion, propose cuts 
year over year, stretch out development schedules, scale-back 
capabilities, impose unique accounting rules like "termination 
liability," and hold up the purchase of long-lead items during 
continuing resolutions.
    We now have bold leadership that is empowering NASA to lean 
forward. NASA recently issued a Broad Agency Announcement (BAA) 
soliciting proposals for a Human Landing System within 30 days. 
NASA directed contractors to only propose landers that can 
launch on commercial launch vehicles. This is despite the fact 
that every space exploration study conducted over the last 40 
years indicated that the most optimal architectures for 
exploring the Moon and Mars require a heavy-lift launch vehicle 
similar to SLS. This strategy also fails to leverage the 
investments the taxpayer made over the last decade.
    While I share the frustration in delays to the SLS program, 
switching horses midstream is not a wise move at the point. The 
Aerospace Safety Advisory Panel and the National Academies have 
all reported that one of the largest risks to the success of 
our human exploration program is a lack of consistency. Its 
also fair to note that other human exploration developments, 
like Commercial Crew, are also behind schedule.
    At our last Space Subcommittee hearing, NASA said that 
maintaining the 2024 date for a Lunar landing is unlikely if 
they do not receive the additional funding they requested in 
their budget amendment. If a recent House Appropriations 
Committee hearing is any indication, the likelihood of 
receiving additional funding this year is decreasing. If this 
forces NASA to reassess its schedule for returning to the Moon, 
it would provide an opportunity to ensure that they are 
developing the ideal architecture that maximizes mission 
success and minimizes risk. This could be done by developing 
landers that leverage the investments already made by the 
taxpayer in national capabilities like SLS and Orion and 
relying on the private sector to contribute augmenting cargo 
capabilities and delivering precursor science payloads to the 
Lunar surface. By this time, NASA may have concrete funding 
details and a more refined acquisition strategy.
    I look forward to working with the Administration and my 
colleagues here in Congress to make Artemis a success. I'd like 
to thank our two distinguished witnesses for their service, and 
look forward to their testimony. I yield back the balance of my 
time.

    Chairwoman Horn. Thank you, Ranking Member. The Chair now 
recognizes the Chairwoman of the full Committee, Ms. Johnson, 
for an opening statement.
    Chairwoman Johnson. Thank you, and good afternoon. I want 
to welcome both of our distinguished witnesses to today's 
hearing. Neither of you is a stranger to this Committee. We 
have benefited from your thoughtful perspectives and advice on 
multiple occasions, and I have no doubt that will be the case 
again today.
    Your testimony comes at a particularly significant time. 
This Committee will be reauthorizing NASA this Congress, and a 
program of human exploration beyond low Earth orbit that will 
ultimately take America to Mars is something we will be 
considering. I support a robust program of exploration that 
leads to Mars, but it needs to be one that is sustainable. 
Unfortunately, based on the limited information provided to 
date, the Administration's 2024 lunar landing directive appears 
to be neither executable, nor a directive that will provide a 
sustainable path to Mars.
    Proponents of the Administration's crash program may argue 
that such a deadline will instill a sense of urgency and 
motivation into our space program. However, an arbitrary 
deadline that is uninformed by technical and programmatical 
realities, that is unaccompanied by a credible plan, and that 
fails to identify the needed resources and one that sets NASA 
up to fail, rather than enabling it to succeed. Not only does 
that do the hardworking men and women of NASA and its 
contractor team a real disservice, but it'll wind up weakening 
American leadership in space, rather than strengthening it. 
That is why I'm glad that Chairwoman Horn and the Space and 
Aeronautics Subcommittee have taken the time to strip away the 
rhetoric and examine what will actually be required to carry 
out a sustainable and effective program of human exploration 
leading to the first crewed landing on Mars.
    And I can think of no better witnesses to help us 
understand what will be involved than the two individuals 
before us today. Each of them has decades of experience in 
aerospace, and they speak with deep understanding of what will 
be needed to successfully carry out an ambitious program for 
human exploration. That doesn't mean that we should simply try 
to recreate the Apollo program. Apollo was a unique undertaking 
carried out during a unique time in our history. But we do need 
to understand the factors that made Apollo and other major 
space flight programs successful, including a skilled 
management team; a hardnosed approach to design, and 
operations, and risk; an understanding of the pros and cons of 
the available technological options; a commitment to testing; 
and a willingness to commit the necessary resources. As we 
embark upon this generation's human exploration adventure, we 
face many of the same challenges as those who led Apollo faced. 
While we need not be bound by the past, we do need to take heed 
of its lessons, some of which were painfully learned.
    In closing, I believe that my friends and colleagues on 
both sides of the aisle want a human exploration program for 
America that is bold and visionary, and worthy of our great 
nation. I believe we can have one, if we take the time to get 
it right. This hearing is an important step in that process, 
and I look forward to our discussion. Thank you, and I yield 
back.
    [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon. I want to welcome both of our distinguished 
witnesses to today's hearing. Neither of you is a stranger to 
this Committee. We have benefited from your thoughtful 
perspectives and advice on multiple occasions, and I have no 
doubt that that will be the case again today.
    Your testimony comes at a particularly significant time. 
This Committee will be reauthorizing NASA this Congress, and a 
program of human exploration beyond low Earth orbit that will 
ultimately take America to Mars is something we will be 
considering. I support a robust program of exploration that 
leads to Mars, but it needs to be one that is sustainable. 
Unfortunately, based on the limited information provided to 
date, the Administration's 2024 lunar landing directive appears 
to be neither executable nor a directive that will provide a 
sustainable path to Mars.
    Proponents of the Administration's crash program may argue 
that such a deadline will instill a sense of urgency and 
motivation into our space program. However, an arbitrary 
deadline that is uninformed by technical and programmatic 
realities, that is unaccompanied by a credible plan, and that 
fails to identify the needed resources is one that sets NASA up 
to fail rather than enabling it to succeed. Not only does that 
do the hardworking men and women of NASA and its contractor 
team a real disservice, but it will wind up weakening American 
leadership in space rather than strengthening it.
    That is why I am glad that Chairwoman Horn and the Space 
and Aeronautics Subcommittee are taking the time to strip away 
the rhetoric and examine what will actually be required to 
carry out a sustainable and effective program of human 
exploration leading to the first crewed landings on Mars. And I 
can think of no better witnesses to help us understand what 
will be involved than the two individuals before us today. Each 
of them has decades of experience in aerospace, and they speak 
with deep understanding of what will be needed to successfully 
carry out an ambitious program of human exploration. That 
doesn't mean that we should simply try to recreate the Apollo 
program-Apollo was a unique undertaking carried out during a 
unique time in our history. But we do need to understand the 
factors that made Apollo and other major spaceflight programs 
successful, including a skilled management team, a hard-nosed 
approach to design and operations and risk, an understanding of 
the pros and cons of the available technological options, a 
commitment to testing, and a willingness to commit the 
necessary resources. As we embark on this generation's human 
exploration adventure, we face many of the same challenges as 
those who led Apollo faced. While we need not be bound by the 
past, we do need to take heed of its lessons-some of which were 
painfully learned.
    In closing, I believe that my friends and colleagues on 
both sides of the aisle want a human exploration program for 
America that is bold and visionary and worthy of this great 
nation. I believe that we can have one, if we take the time to 
get it right. This hearing is an important step in that 
process, and I look forward to our discussion.
    Thank you, and I yield back.

    Chairwoman Horn. Thank you, Madam Chairwoman. And at this 
time the Chair recognizes Ranking Member, and fellow Oklahoman, 
Mr. Lucas for his opening statement, and introduction of 
another fellow Oklahoman.
    Mr. Lucas. Thank you, Madam Chair. Tomorrow marks the 50th 
anniversary of Apollo 12's launch. November 14, 1969, Pete 
Conrad, Alan Bean, and Richard Gordon set off on humanity's 
second mission to the lunar surface. Despite harrowing winds 
and lightning strikes that overloaded the spacecraft's fuel 
cells during the launch, the mission's success proved America's 
resolve to explore space. It demonstrated that Apollo 11 wasn't 
a fluke, or a one-time achievement, but rather the dawn of a 
new era for mankind.
    The missions after Apollo 11 may not have been as 
celebrated, but they solidified America's leadership in space, 
and were just as valuable to our studies of the moon. But what 
if we did not return to the Moon after Apollo 11? And 
thankfully we did, and we followed that up with a string of 
successful launches, culminating in Apollo 17. Unfortunately, 
we haven't been back to the Moon since Gene Cernan left his 
daughter's initials in the lunar dust in 1972 on Apollo 17. 
That's 47 years, nearly a half a century.
    I can't help but draw comparisons to the current state of 
human space exploration. Rather than canceling a return to the 
Moon by saying we've been there before, the Trump 
Administration set a bold course to return to the Moon, and 
assure American leadership in space. Just as Apollo 12 affirmed 
America's resolve last century, the Administration's plans to 
return to the Moon will demonstrate our resolve and leadership 
in this century. This is because we have the potential to learn 
much more now than we did a half a century ago.
    Just last week NASA scientists opened an untouched sample 
of lunar rocks collected during Apollo 17. We kept those 
samples preserved for nearly 50 years because we knew our 
technology would advance rapidly in the years following Apollo 
17, and we could learn more from analyzing them now, in 
pristine conditions, than we could've at the time. Similarly, 
returning to the Moon now will help us develop the technology 
necessary to land humans on Mars. It will allow our astronauts 
to learn how to operate in deep space, and on the surface of 
another world only a few days away, rather than months or years 
away. The Artemis program has already energized the NASA 
workforce, motivated contractors, inspired scientists and 
students.
    Artemis will require marshaling our Nation's best and 
brightest, as well as significant contributions from our 
international partners and the private sector. This is a 
worthwhile task because great nations do great things. As we 
set forth on our return to the Moon, we should always be 
mindful of the lessons we learned from Apollo and the decades 
that followed. Progressing incrementally on successful 
achievements, limiting the number of mission elements to 
decrease risk, and maintaining consistency of purpose are 
lessons that are just as relevant today as they were 50 years 
ago.
    Luckily we have two great witnesses who I'm sure can add to 
this list for us. And as the Chairman noted, one of those 
witnesses is a fellow Oklahoman, Lieutenant General Thomas 
Stafford, Retired. He grew up in Weatherford, Oklahoma, which I 
proudly represent. After attending the Naval Academy, and 
serving as an Air Force test pilot, he was selected for 
astronaut group number two in 1962. He went on to fly aboard 
Gemini 6A, Gemini 9, Apollo 10, and Apollo-Soyuz Test Project. 
He served as a director of the Astronaut Office, commanded the 
Air Force Flight Test Center at Edwards Air Force Base, and was 
Deputy Chief of Staff, Research, Development, and Acquisition 
at the Pentagon. Since retirement, he served as the Chairman of 
the International Space Station Advisory Committee, chaired the 
Synthesis Group that produced the report entitled, ``America at 
the Threshold: On the Space Exploration Initiative.'' His 
awards are too numerous to mention, but probably his finest 
accomplishment is being born in Western Oklahoma, where, I 
would note, his namesake, the Stafford Air and Space Museum, 
resides. I'm proud to call him a constituent, a friend, a 
confidant.
    Thank you for holding this hearing, Madam Chair. I yield 
back the balance of my time, and look forward to the testimony.
    [The prepared statement of Mr. Lucas follows:]

    Tomorrow marks the 50th anniversary of the Apollo 12 
launch. On November 14, 1969, Pete Conrad, Alan Bean, and 
Richard Gordon set off on humanity's second mission to the 
lunar surface. Despite harrowing winds and lightning strikes 
that overloaded the spacecraft's fuel cells during the launch, 
the mission's success proved America's resolve to explore 
space. It demonstrated that Apollo 11 wasn't a fluke or a one-
time achievement, but rather the dawn of a new era for mankind.
    The missions after Apollo 11 may not have been as 
celebrated, but they solidified America's leadership in space 
and were just as valuable to our studies of the Moon. But what 
if we did not return to the Moon after Apollo 11? Thankfully we 
did, and we followed that up with a string of successive 
missions culminating with Apollo 17. Unfortunately, we haven't 
been back to the Moon since Gene Cernan left his daughter's 
initials in the lunar dust in 1972 on Apollo 17. That's 47 
years - nearly half a century.
    I can't help but draw comparisons to the current state of 
human space exploration. Rather than canceling a return to the 
Moon by saying, "we've been there before," the Trump 
Administration set a bold course to return to the Moon and 
assure American leadership in space. Just as Apollo 12 affirmed 
America's resolve last century, the Administration's plans to 
return to the Moon will demonstrate our resolve and leadership 
in this century.
    This is because we have the potential to learn much more 
now than we did a half century ago. Just last week, NASA 
scientists opened an untouched sample of lunar rocks collected 
during Apollo 17. We kept those samples preserved for nearly 50 
years because we knew our technology would advance rapidly in 
the years following Apollo 17 and we could learn more from 
analyzing them now, in pristine condition, than we could at the 
time.
    Similarly, returning to the Moon now will help us develop 
the technology necessary to land humans on Mars. It will allow 
our astronauts to learn how to operate in deep space and on a 
surface of another world only days away - rather than months or 
years away.
    The Artemis program has already energized the NASA 
workforce, motivated contractors, and inspired scientists and 
students. Artemis will require marshaling our nation's best and 
brightest as well as significant contributions from our 
international partners and the private sector. This is a 
worthwhile task because great nations do great things.
    As we set forth on our return to the Moon, we should always 
be mindful of the lessons we learned from Apollo and the 
decades that followed. Progressing incrementally on successive 
achievements, limiting the number of mission elements to 
decrease risk, and maintaining consistency of purpose are 
lessons that are just as relevant today as they were 50 years 
ago. Luckily, we have two great witnesses who I am sure can add 
to that list for us.
    One of those witnesses, Lieutenant General Thomas Stafford 
(Ret.), grew up in Weatherford, OK, which I proudly represent. 
After attending from the Naval Academy and serving as an Air 
Force test pilot, he was selected for Astronaut Group 2 in 
1962. He went on to fly aboard Gemini 6A, Gemini 9, Apollo 10, 
and the Apollo-Soyuz Test Project. He served as Director of the 
Astronaut Office, commanded the Air Force Flight Test Center at 
Edwards Air Force Base, and was the Deputy Chief of Staff, 
Research Development and Acquisition at the Pentagon.
    Since retirement, he served as the Chairman of the 
International Space Station Advisory Committee and chaired the 
Synthesis Group that produced the report titled "America at the 
Threshold" on the Space Exploration Initiative.
    His awards are too numerous to mention, but probably his 
finest accomplishment is being born in western Oklahoma, where 
his namesake, the Stafford Air and Space Museum resides. I am 
proud to call him a constituent, a friend, and a confidant.
    Thank you for holding this hearing, Madam Chairwoman. I 
yield back the balance of my time.

    Chairwoman Horn. Thank you, Ranking Member Lucas. It is 
truly an honor to have you both here today. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point. And, 
without objection, I'm submitting for the record a letter from 
the Planetary Society. OK. Wonderful.
    So we've had an introduction of one of our witnesses, and I 
have to say that one of the really fantastic things about the 
work that we get to do on this Committee is that we're doing 
the work of the Nation, and we're doing it in a way that 
exemplifies what we should be doing, working in a bipartisan 
manner to address the issues ahead of us, and set this up for 
success, and that includes the recognition of the witnesses in 
front of us today that I don't think you'll find any 
disagreement about the expertise and the experience of our 
witnesses. And I'd like to take a moment now to introduce our 
other distinguished witness, who, like General Stafford, has 
his own remarkable career.
    Our second witness today is Mr. A. Thomas Young, former 
NASA Goddard Director and aerospace industry executive. Mr. 
Young began his career at the Langley Research Center, where he 
was the Mission Director for Project Viking, which successfully 
landed two Viking spacecraft on Mars. He also served as the 
Director of the Planetary Program at NASA Headquarters, and was 
Deputy Director of NASA Ames Research Center. He then went on 
to become Director of NASA's Goddard Space Flight Center.
    After leaving NASA in 1982, Mr. Young transitioned to 
industry, and became President and Chief Operating Officer of 
Martin Marietta Corporation, an aerospace manufacturing 
corporation that later merged with Lockheed Corporation to form 
what is now known as Lockheed-Martin Corporation. Mr. Young is 
the fellow of numerous prestigious organizations, including the 
American Institute of Aeronautics and the American 
Astronautical Society, the Royal Astronautical Society, and the 
International Academy of Astronautics.
    Mr. Young received both a bachelor's degree in aeronautical 
engineering and a bachelor's degree in mechanical engineering 
from the University of Virginia. He also received a master's of 
management degree from MIT, and an honorary doctorate of 
science from Salisbury University. Welcome, Mr. Young.
    As our witnesses, you should know you will each have 5 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing, and when you've 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel, and 
we'll start today with General Stafford. General Stafford, 
you're recognized.

       TESTIMONY OF LIEUTENANT GENERAL THOMAS P. STAFFORD,

            MEMBER, NATIONAL ACADEMY OF ENGINEERING,

             CHAIRMAN, NASA ISS ADVISORY COMMITTEE;

        PILOT, GEMINI 6; CDR. GEMINI 9; CDR. APOLLO 10;

             CDR. APOLLO/APOLLO-SOYUZ TEST PROGRAM;

      AND FORMER USAF DEPUTY CHIEF OF STAFF FOR RESEARCH,

                  DEVELOPMENT, AND ACQUISITION

    Lt. Gen. Stafford. Chairwoman Horn, Ranking Member Babin, 
Committee Members, and also full Committee Chairwoman, friend, 
Bernice Johnson, and Ranking Member Lucas, thank you for this 
opportunity to address the current state of NASA exploration 
beyond low Earth orbit. And over the years I've had the 
opportunity to testify before both the Subcommittee and the 
full Committee for many years, and I've always applauded this 
Subcommittee and the Committee for your continued bipartisan 
support for the guidance and the legislation to ensure the 
United States has a strong world leadership in space 
exploration.
    And, going back a few years to the NASA 2010 authorization 
bill, it was really superb to see the bipartisan work of both 
the House and the Senate, and then the House and the Senate 
working together, that gave us the authorization under which we 
have the SLS and the Orion spacecraft today. And, from my 
observation of that, being a little bit involved in that, if 
all the Members of the U.S. Congress, the House and the Senate, 
worked like that, the congressional approval rating would be up 
in the 60 or 70 percent, believe me. But the 2010 authorization 
bill was just superb, so thank you for all the help.
    As pointed out, this is the 50th anniversary of the Apollo 
program I remember so well, and it was 50 years ago that I flew 
to the Moon. I was commander of Apollo 10, and also, to 
Congressman Lucas, I certainly appreciate those kind words of 
introduction for just a redneck gray haired space cowboy from 
Western Oklahoma. But as we look at where we are going forward, 
it's going to be difficult. It's going to be tough. And I'm 
reminded of the words of the great writer George Santayana, to 
paraphrase it, those that ignore the lessons of history are 
doomed to repeat them. And as we start down here with the 
Artemis program, we have to be aware of all the triumphs and 
the tragedies that we've had in the past.
    Now, in 1989, the 20th anniversary of Apollo 11, President 
George H.W. Bush gave a speech on the steps of the Smithsonian 
Air and Space Museum. He set the space policy for returning to 
the Moon after the turn of the century then, and then--back to 
stay, he said, and then eventually a manned mission to Mars. 
That became known as the Space Exploration Initiative. Then 
Vice President Quayle was then appointed to activate the 
National Space Council. And then, after a couple of small 
studies, I was asked by Vice President Quayle and President 
Bush if I would chair a committee to put together and 
synthesize the ideas of how to go back to the Moon, on to Mars, 
in a way that's faster, better, safer, and lower cost.
    So I donated about 60 percent of my time, had two floors of 
people over in Crystal City, 45 people full time. We had people 
from all around the United States, industrial firms came in, 
and at the end of 11 months the Vice President and I had a 
joint press conference at the White House and unveiled this 
book--kind of known as the Bible for exploration beyond low 
Earth orbit called, ``America at the Threshold.'' And one of 
the major things that came out in my charter was two or more 
architectures, and the technology priorities. We had 14 
technology priorities, and we ended up with four architectures, 
but the number one was that this country build a heavy lift 
booster that would go from 150 metric tons to grow to 250 
metric tons. And we outlined this out of parts and pieces from 
the Saturn V to reduce the cost. And hopefully we will be able 
to get there someday, even though the booster we have now is 
small, compared to that. Thank you, Madam Chair.
    [The prepared statement of Lt. Gen. Stafford follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, General Stafford. Mr. Young, 
you're recognized.

                  TESTIMONY OF A. THOMAS YOUNG,

          FORMER DIRECTOR OF NASA GODDARD SPACE FLIGHT

          CENTER; FORMER PRESIDENT AND CHIEF OPERATING

                 OFFICER, MARTIN MARIETTA CORP.

    Mr. Young. Chairwoman Horn, Ranking Member Babin, and 
Committee Members, and Committee Chairwoman Johnson, and 
Ranking Member Lucas, I'm pleased to have the opportunity to 
present my views as to the critical actions necessary to 
maximize the probability of success of the Mars-Moon human 
exploration program.
    Mars human exploration, with humans to the Moon as 
preparation, is one of, and perhaps the most challenging, 
exciting, and potentially rewarding exploration endeavors ever 
undertaken. The challenges and risk cannot be overstated, nor 
can the excitement and anticipated extraordinary rewards. It is 
a bold and achievable endeavor that the United States should 
pursue. Business as usual will not be adequate to successfully 
implement the Mars-Moon program. The best of the best will be 
required. Extraordinary actions will be necessary, requiring 
that the program have high national priority.
    NASA has exceptional Moon and Mars experience, with 
sophisticated robots at the Moon and Mars, and humans on the 
surface of the Moon. No one else, domestic or international, 
has this breadth and depth of exploration experience and 
capabilities. The challenges of the Moon-Mars program are such 
that the leadership capabilities of NASA must be augmented. 
Additional senior experienced leadership from other government 
organizations, industry, and academia will be needed, as was 
the case for Apollo.
    Strengthening the NASA workforce will also be necessary. 
Half a century has passed since Apollo, making that experience 
less relevant. A workforce experienced in the development and 
execution of large, complex space projects will be required. 
The International Space Station, Orion, SLS, and the Mars 
Robotic program have contributed significantly to workforce 
development. I believe the most important role for the lunar 
phase is additional workforce experience. Mercury, Gemini, and 
Saturn V clearly were important contributors to workforce 
development for Apollo.
    The United States aerospace industry has implementation 
capabilities that are second to none. Utilizing the 
implementation capabilities of industry, in partnership with 
the breadth of NASA experience, will be critical to achieving 
program success. More specifically, the full capability of NASA 
and industry will be required. Management and contracted 
experiments must be excluded from the Mars-Moon program. 
Implementation will be at the limitation of our capability, 
without the additional complications of management and 
contracted experiments. A clear, unambiguous goal is required. 
Is the lunar part of the program to support success at Mars, or 
is it to achieve sustained lunar presence? Does the Mars part 
of the program have specific objectives, such as a Mars orbital 
mission, followed by boots on the ground, or is it a long-range 
objective? Answers to these questions will have a profound 
impact on schedule, cost, and a reasonable timeline for humans 
to Mars.
    A clear, unambiguous goal must be followed by a detailed 
plan that is consistent with the goal, and developed by the 
Mars-Moon program leadership. A detailed plan is the glue that 
integrates the vast array of Mars-Moon participants into the 
incredible team necessary to implement the Mars-Moon program. 
Additionally, a detailed plan is necessary to rally support, 
develop a credible budget, and obtain program then budget 
approval. Obviously, a budget is required. To be credible, the 
budget must fund the most probable cost of the program. My 
understanding of NASA policy is that the most probable cost is 
defined as a 70/30 cost estimate.
    The budget should be phased by fiscal year, consistent with 
the work plan associated with the detailed plan discussed 
earlier. This will result in a budget profile that is a bell 
shape, with higher fiscal year funding required in years for 
development, manufacturing, integration, and testing. Flat 
budgets, with a relatively equal funding each fiscal year, is 
the least efficient program management approach. A flat budget 
approach can result in years of scheduling delay, and 
potentially doubling the project cost. Obviously, a flat budget 
should be avoided.
    Today NASA's human space flight program plate is full. It 
includes ISS, commercial cargo, commercial crew, low Earth 
orbit commercialization, the new commercial space paradigm, et 
cetera. All are demanding activities. SLS, Orion, and Gateway 
are challenging elements of the human space flight endeavor. In 
my opinion, the inclusion of the Mars-Moon program makes the 
portfolio of human space flight activities unachievable with an 
acceptable probability of success. Priorities, and most likely 
the termination of some activities, will be clearly required.
    The Mars-Moon program is clearly the most challenging and 
difficult civil space program ever undertaken. Success will 
depend upon the recognition of the challenges, difficulty, and 
risk. Success will depend upon the implementation of 
extraordinary actions necessary to have a sufficiently high 
probability of success. In summary, the actions include: NASA 
leadership augmentation, strengthening NASA workforce, full 
utilization of NASA and industry capabilities, avoiding 
management and contracting experiments, a clear and unambiguous 
goal, a detailed plan, a budget consistent with the most 
probable cost estimate, prioritization of human space flight 
activities, and elimination of current human space flight 
activities necessary to assure that required resources are 
available for implementation of the Mars-Moon program.
    The Mars-Moon program, while bold, is achievable. 
Extraordinary actions will be required to assure success. A 
business-as-usual approach will most likely end in failure. The 
absolute best of NASA, industry, academia, and our 
international partners is required. Thank you.
    [The prepared statement of Mr. Young follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Mr. Young. The Chair now 
recognizes herself for 5 minutes.
    Again, thank you both for your breadth and depth of 
experience and expertise. I think it's clear that we are facing 
some important challenges in addressing both how we set the 
program up, from a standpoint of authorization, but also 
funding. And so I'd like to start, Mr. Young, with a couple of 
your comments, and looking at the current program that NASA is 
undertaking. You touched on a couple of these things, but I'd 
like to follow up. What would it take, at this point, under the 
current program, to enable a lunar landing by 2024? Is that, at 
this point, something that you think we can achieve in that 
timeframe?
    Mr. Young. Clearly the budget, which you touched on, but 
the items that I mentioned--one is it's going to take some 
extraordinary leadership, and NASA has exceptional capability 
today, but not enough, so the NASA leadership needs to be 
augmented somewhat in the manner that Apollo was done. I recall 
on Apollo General Sam Foltz, a four-star Air Force general, was 
brought over to the--George Miller from industry was brought 
over. Bellcom was established by AT&T at Bell Labs to support 
NASA headquarters, and they actually ended up having 500 people 
involved in that activity, so staffing is a critical item.
    I guess the other item--I went through a list, but the 
other item is--the plate is really full today, and if--again, 
if we compare us with the Apollo era, you know, it was 
basically Apollo, which were following Mercury and Gemini. I 
mean, today the array of things that NASA is charged with doing 
is overwhelming. And I personally think that the leadership is 
going to have to, number one, prioritize, but, number three, is 
probably to eliminate some of the things that are currently 
being done that will interrupt having any opportunity of 2024, 
or I would say even 2028, about making those kinds of 
decisions.
    Chairwoman Horn. Thank you very much. And, General 
Stafford, I want to follow up. I think it's remarkable that the 
work you did in 1991 is still so instructive and informative 
today, and the time and effort you put into that. So, in that 
report, you talked about accomplishing necessary system 
demonstrations and preparations on the Moon prior to attempting 
a challenging Mars mission. Do you still believe that a 
stepping-stone approach is the best pathway to send humans to 
the Moon?
    Lt. Gen. Stafford. Absolutely. This was looked at in-depth, 
and, you know, we looked at ways at first we could just go 
direct to Mars, and the more we looked at it, and this was a 
whole group of all types of input, you could do a series of 
things on the Moon that would be similar to Mars. In fact, you 
could use Martian hardware on the Moon. Moon has got one-sixth, 
Mars has 38 percent of Earth's gravity. And we actually could 
simulate it up to certain days, and all this, so there's so 
many things to do, and work out the unknowns. And so the answer 
is yes, it's go to the Moon first, and then Mars. You wouldn't 
launch from the Moon. You'd launch from the Earth to go to 
Mars, but you could work out so many of the problems.
    Chairwoman Horn. Thank you. And, following on that, General 
Stafford, you mentioned, and this is also in your report, the 
essential need for a heavy lift vehicle. Can you speak to how a 
heavy lift vehicle--why it's important, and how it affects the 
systems and decisions, such as the human landing system?
    Lt. Gen. Stafford. Right. For the Members of the Committee, 
just to review, goes back to Tsiolkovsky's Law, a simple three-
term equation. Say on Gemini, it weighed 315,000 pounds at 
ignition. I went into orbit, and that Gemini had a little less 
than 8,000 pounds. I had 2 percent of the mass of ignition that 
I was in orbit. Now, on Apollo, because we had hydrogen in the 
upper stages, it was more efficient. It was later on in 
technology. But when I went to the Moon, I had 6.4 million 
pounds at ignition, into orbit with 300,000 pounds, which a 
large part was hydrogen to take--and oxygen to take us out 
there. But I had 4.8 percent in low Earth orbit of what I 
ignited with. And then we ignited after 1-1/2 revolutions 
around the Earth to go on a trans-lunar injection, which picked 
up 11,000 feet per second. When that shut off, then I had a 
useful payload of 100,000 pounds, the lunar module and the 
commanding service module. That was 1.6 percent of what I 
started with. So just for weight alone, if you don't have a big 
booster, you're not going to make it.
    But also so important, that's often left out besides just 
weight is the size. You need a big payload shroud to carry the 
rovers, the habitats, the infrastructure. You have to have a 
big shroud, which leads you to a big, wide-diameter booster. If 
you don't have it, you're not going to make it.
    Chairwoman Horn. Thank you very much, General. My time has 
expired. I recognize Mr. Babin for 5 minutes.
    Mr. Babin. Ma'am, thank you. General Stafford, previous 
Administrations have argued that we should not return to the 
Moon because we've been there before. Would you feel more 
comfortable conducting a mission to the Moon to test systems 
for an eventual Mars mission, or would you prefer to skip 
directly to a Mars mission, and is it prudent to first test 
capabilities days away, when you're on the Moon, before 
attempting a mission to Mars, which would be months or years 
away from Earth, in case problems arise?
    Lt. Gen. Stafford. Congressman Babin, as the saying goes, I 
may be a little dumb, but I'm not stupid. Now, we went through 
this in great detail, and the Moon is only 3 days away----
    Mr. Babin. Yes, sir.
    Lt Gen. Stafford [continuing]. And if you have something--
there's a way, possibly, to get back--other ones to help you, 
and you're in direct communications. For example, we said to 
condition to the--we'd have a small space station that would be 
there for the period of time it would take to go to the Moon a 
chemical rocket at the right time of the year. You can't go 
there every year because there's a 15-year period of energy----
    Mr. Babin. Right.
    Lt Gen. Stafford [continuing]. Sinusoid, and you can only 
launch every 26 months, but right now the lowest point, and the 
best energy, was in 2016, and so the next time is 15 years 
later----
    Mr. Babin. Yes, sir.
    Lt. Gen. Stafford. --2031, and the worst time is 2024.
    Mr. Babin. Well said.
    Lt. Gen. Stafford. Anyway, go for, say, 260 days or so in a 
small, like, station around the Moon. This is one place where 
the gateway might be feasible. There's a lot of things I think 
is not feasible about it. And then we'd land, and then, to 
simulate 38 percent gravity versus 16 percent, we'd have just 
weights on the shoulders, just like football players train with 
weights, that would bring your weight from 16 percent to 38, so 
that would tell you how mobility--and this is just a simple 
thing. We would----
    Mr. Babin. Yes, sir.
    Lt Gen. Stafford [continuing]. Do other things about that. 
So we think it's imperative. And also you have to learn how to 
recycle your oxygen and recycle the water. We're doing a lot of 
this on the Space Station, but we need to get the efficiency 
higher.
    Mr. Babin. OK. Yes, sir, thank you very much. And, Mr. 
Young, your testimony states that management and contracting 
experiments must be excluded from the Mars-Moon program. Can 
you expand on that a little, and is the next step broad agency 
announcement for human landing systems an experiment that would 
introduce unnecessary risk to the program?
    Mr. Young. Co-pilots and pilots are supposed to guide each 
other here. NASA has extraordinary capability that should be 
fully utilized and executed in the program. That's kind of the 
number one premise. And industry has extraordinary capability 
in implementation, which should be utilized. So I'm not a fan 
of an acquisition process that basically is training industry 
to do the job that NASA has historically done in favor of an 
acquisition process that makes maximum use of both 
capabilities.
    As an example, a management experiment, in my view, would 
be to buy seats for crews to fly to the surface of the Moon. I 
personally think that these should be government-acquired 
assets under the leadership and direction of NASA, with 
industry having a full capability implementation. I think 
commercial cargo, if I went back to that, was an experiment 
that was worth doing, and in my view, if it didn't work out, it 
failed soft. Commercial crew, in my example, is not the kind of 
concept that I would propose or support that we implement for 
the lunar program.
    Mr. Babin. Yes, sir.
    Mr. Young. So I'm working off maximize probability of 
success, utilize all the capabilities you have to do that.
    Mr. Babin. Thank you. Real quickly, General Stafford's 
testimony states, ``the leadership capability at NASA must be 
augmented at headquarters and applicable centers.'' Mr. Young's 
testimony states, ``the challenges of the Moon-Mars program are 
such that the leadership capabilities of NASA must be 
augmented.'' What exactly do you gentlemen mean by that, and 
would you elaborate on that, and how the administration can 
improve its leadership and augmentation?
    Lt. Gen. Stafford. Mr. Babin, I'll start. When we pulled in 
Mr. Webb, and the administration pulled in the best talent 
available, and that was General Sam Phillips, and he had 
managed the B-52. We built 740-some B-52s, and he's the one 
that put the 1,000 minutemen in the ground, so he had 
tremendous experience. And I know of nobody that has the 
experience of General Sam Phillips today. And we were 
fortunate, too, down at Marshal Space Flight Center. We had Dr. 
Von Braun--his team had designed, developed, and produced 6,000 
V-2 rockets in World War II, and then started the Redstone 
Rocket here in the States, our first ballistic missile.
    I don't know of any talent like that available, so it's 
going to be tough to augment. We did have Bellcom, as Mr. Young 
mentioned, came from Bell Laboratories. It was Bell 
Laboratories that started the idea of systems engineering. And 
so they had, I think, up to 500 people--Tom?
    Mr. Young. Yes.
    Lt. Gen. Stafford. Here at headquarters that would help 
them. So I'll----
    Mr. Babin. Yes, sir.
    Lt Gen. Stafford [continuing]. Turn it over to Mr. Young.
    Mr. Young. I could add to what General Stafford has said. 
First thing I want to make clear is that this is not a 
criticism of the current NASA. It's a recognition that a Mars 
human program is probably the most challenging thing we have 
ever done as a civilization. I mean, it, you know, we just 
can't underestimate what a challenge it is, I think achievable 
challenge. Even returning to the Moon, you know, will be a 
challenge. So what that says is we've just absolutely got to 
have the best that the country has available. And what that 
says is that we need to augment the current NASA capability, 
like we did in Apollo. And if we don't, then we're probably 
embarking upon something that we should not embark upon.
    Mr. Babin. Thank you very much. I'm way over, sorry.
    Chairwoman Horn. That's OK. Thank you very much, and Mr. 
Babin, thank you. The Chair recognizes Chairwoman Johnson for 5 
minutes.
    Chairwoman Johnson. Thank you very much. Mr. Young, we're 
here today to get your perspective on the most effective and 
sustainable path forward for our Nation's human exploration 
program, and you have commented some on that, but I'd like you 
to tell me your thoughts on what should be our exploration 
goal, and the timeline. Give us your perspective.
    Mr. Young. Good question, thank you. My personal belief is 
that the most compelling opportunity is humans to Mars. I also, 
as I just mentioned, respect and understand how challenging 
that is, and I believe that we certainly can maximize the 
probability of that mission by lunar activities. So I'm an 
advocate of the lunar part of the program being preparatory for 
the Mars part. I do have a worry that it's possible that we 
could get bogged down at the Moon, so I think we really need to 
clearly define what it would be. So, if I were personally 
writing the goal that you talked about, it would it would be 
boots on the ground at Mars, and that we should implement those 
things that are necessary, like the lunar program, to maximize 
probability of success, and also recognize that we do need 
intermediate milestones where we can demonstrate success as 
we're going on.
    I'm going to cheat with time, but just to add, I've thought 
a bit about, you know, Apollo had the advantage of an 
international competition with the Soviet Union, so what drives 
us to do a similar kind of a thing for Mars? And there are a 
lot of reasons--science, geopolitical. My personal belief is 
that today we live in a very challenging, complicated world, 
and it is possible for a young generation to be discouraged, 
and even depressed, by some of the--and I don't see that 
changing. To have an objective of something like humans to 
Mars, seems to me, is the inspiration, and the beacon, and the 
bright light, and it's a way to tell our generation, and your 
all's generation, to tell the future generations there's a lot 
of opportunity that's out there, you know, and don't be turned 
off by just the fact there are an awful lot of challenges, 
because, you know, humans to Mars is just an incredible 
endeavor.
    And I can go one step further. I can envision, every day, 
the crew, to keep them seen, communicating with us here on 
Earth, telling us what's going on, and that, in itself, you 
know, kind of allowing all of us to participate in the trip to 
Mars. Thank you.
    Chairwoman Johnson. Thank you. General Stafford, what 
lessons do we need to take away from the Gemini and Apollo 
programs that we consider--structing an effective Moon-Mars 
program for sustainability and success? As we think about where 
we are today with our human exploration program, what, if 
anything, do we need to change?
    Lt. Gen. Stafford. Well, Chairwoman Johnson, it's a very 
good point. As I sit in this room and look around at the 
Chairmen, and I see pictures of Chairman Teague from Texas, one 
of the great Chairmen, and I think I testified for him 3 or 4 
times, and he said, what should we do to keep going? I said, 
one thing, Mr. Chairman, is to have consistency, and that's 
what we had in both Gemini and Apollo, we had consistency. And 
we need consistency in funding, resources, support, 
legislative, and all this to keep us going.
    We have to have that, because, as pointed out, President 
Bush started the space exploration issue, then the next 
Administration under Clinton came in, he basically terminated 
it, and exploration languished for 8 years, and then we started 
back up after about 3 years into George W. Bush's 
Administration. And we started rebuilding our systems 
engineering and sustainment, and it went up, and then his 8 
years were up, and then the budget was cut right away, and 
down, and--the Constellation program that had started and it 
was building a big booster out of parts of the Shuttle, part of 
the Saturn, but it went down. And so you have to have 
consistency. That's the main thing. And also realism, like in 
one of your opening statements you said you have to learn from 
the past, like I said from what George Santayana said. You're 
going to repeat the lessons of history if you don't learn from 
them.
    Chairwoman Johnson. Thank you very much. My time's expired.
    Chairwoman Horn. Thank you, Madam Chair. The Chair 
recognizes Ranking Member Lucas for 5 minutes.
    Mr. Lucas. Thank you, Madam Chair, and I want to continue 
down, I think, essentially the same path a number of my 
colleagues are going. NASA's requiring the human landing system 
to launch aboard commercial launch vehicles, rather than the 
more capable SLS. That means more launches, more on-orbit 
rendezvous, more on-orbit assembly, fails to leverage the 
investments that we've made in SLS. Now, General Stafford, you 
conducted some of the first on orbit rendezvous during the 
Gemini program, and flew aboard Apollo 10, which conducted the 
dress rehearsal of Apollo 11, and chaired the Advisory 
Committee in the 1990s, so safety is an issue with you. Could 
you touch for a moment, if we're going to go with that smaller 
system for doing things, what do multiple launches and multiple 
on-orbit rendezvous affect safety and risk postures for the 
lunar landers?
    Lt. Gen. Stafford. Well, Mr. Lucas, that's a very good 
question, and the mission I did to encompass the whole thing 
was one launch. And I reviewed the material that Mr. Cooke 
testified for this Committee I think a little over a month or 
so ago, and outlined it, and there's eight launches required 
under the present architecture. Only one are the big ones, the 
rest are small ones. And the probability of success, as he 
outlined, and I cannot disagree with it, was only 50 percent. 
And I certainly would not want to start that.
    In Apollo, we had a goal of crew safety of 999, and mission 
success of .90. And if you review what we did on Apollo, he 
first mission was just on a small Saturn Earth orbit, but on 
the big Saturn we had 10 missions, and nine of those were 
successful. We had Apollo 13. It was a success to bring the 
crew back. We hit the three times of bringing the crew back, 
but the mission failed to make the third lunar landing, so we 
were right there are .9. But with eight launches, I'll have to 
go with Mr. Cook, your probably of success goes down to about 
50 percent.
    Mr. Lucas. Oh my. Mr. Young, to continue down the path of 
your comments, and your testimony, listed, of course, a number 
of recommendations to ensure that NASA plans move forward 
successfully. One of those recommendations is to prioritize 
human space flight activities. Could you discuss for a moment, 
if NASA does not get additional funding, and the ISS operations 
are extended to 2033, I think I know the answer, but for one 
more time, will this delay deep space exploration?
    Mr. Young. Absolutely it will delay it. It will delay it 
significantly also, yes.
    Mr. Lucas. General Stafford, on Apollo 10 you flew closer 
to the Moon than anyone ever before. Of course, this gave you a 
unique, up-close perspective of the Moon's geological features, 
the craters, the boulders, and this informed the final landing, 
and provided scientists with important information. Will a 
return to the Moon teach us valuable information about the Moon 
and the Earth?
    Lt. Gen. Stafford. Mr. Lucas, absolutely, and in the book 
here we had, you know, our charter was to give two or more 
architectures, and the technology priorities. In other words, 
how do we go back to the moon? And about 4 months into the 
year's effort we had, it became obvious to us we have to say, 
why should we go back to the Moon? And so that is included in 
this book. And what we would learn from it is really a 
tremendous amount of knowledge, and what you can do from it is 
unbelievable. And it takes too long to go into the details. 
They're all inside the book there, sir. But, yes, there's 
reasons to go back.
    Mr. Lucas. One last question, General. I know it's been a 
day or two since you did it, but that must have been a 
tremendous view out the window of that lander.
    Lt. Gen. Stafford. Well, the lander was a unique vehicle, 
Mr. Lucas. It was a very flimsy vehicle. Unpressurized, you 
could take your thumb and push hard between the frames, and the 
skin would bow out. And then we only flew at five pounds per 
square inch pure oxygen, and when you did that, you see the 
rectangular hatch in front of you where you crawled it, it 
would bow out. It was not meant for, you know, air-type 
operations. It was made out of very thin material, and it 
worked one time, but it did the job, and it did the job real 
well. We six successful landings. We brought back 842 pounds of 
rock and material from the Moon, and from that we have 
certainly learned a lot.
    Mr. Lucas. Thank you, General. Yield back the balance of my 
time.
    Chairwoman Horn. Thank you, Ranking Member Lucas. The Chair 
recognizes Mr. Perlmutter for 5 minutes. And he's going to pull 
out his--yes, there it is. There's the bumper sticker. I knew 
it was coming.
    Mr. Perlmutter. Gentlemen, thank you for your testimony 
today. I kind of feel intimidated by the two of you being here, 
and sharing with us your thoughts and your knowledge about all 
of this. And, you know, clearly, General, you talk about 
consistency, and from Administration to Administration it kind 
of varies and changes. And, quite frankly, I think it's our 
responsibility, as Members of Congress who are here, and this 
institution goes on and on and on, for us to set these 
unambiguous goals with an international project such as this, 
because it's huge, and it's going to take a long time to really 
get the pieces. It's going to have to have a budget that is 
worthy of the task that you're undertaking.
    So Mr. Young has seen my bumper sticker before, and the, 
you know, we talked about repeating history, but the other side 
of that is--the fact is we did do it with Apollo, and Gemini, 
and Mercury, when we didn't have nearly the capabilities that 
we have now. And so my bumper sticker says 2033, and the small 
print you can't see, this is Mars over here, says ``We can do 
this.'' We can do this, if we have consistency, a purpose, an 
unambiguous goal, and Democrats and Republicans, together with 
the people of the country and the world, say, we're going to do 
it. We will do it.
    So my question to you--I'll start with you, Mr. Young, and 
I really--your testimony, both of you, again, re-energizes me 
to go just be persistent as hell about doing this. So you 
talked about the need for kind of public involvement in this. 
How do you think NASA's doing in engaging the public? Can they 
do more? Should there be more done?
    Mr. Young. That's kind of a hard question to answer. My 
observation is that Administrator Bridenstine has gone above 
and beyond in interacting with the public, giving, you know, 
speeches, and advocating strongly for, you know, for the 
program. So, in that regard, I would say, you know, a positive. 
So I guess that's kind of the limit of my observation, and I'm 
on the outside looking in, but I do think the advocacy, you 
know, has been quite positive.
    I think that the early--making some progress on some of the 
items that I identified in my testimony have not been, you 
know, as actively, you know, engaged with, and I recognize the 
difficulty. I am struck by the fact that the Vice President's 
speech was 6 months ago, and I guess Tom Stafford would remind 
me again there's nothing more useless than runway behind you, 
and altitude above you, and it's also time behind you too. So I 
think we really do have to, you know, function with a high 
degree of urgency. I'm an advocate for mission success, but I'm 
an advocate to balance that with urgency, and--so I guess--I'm 
rambling, but my general comment is I think that the support 
for the program has been strong, but a lot of the actions that 
I think that are necessary are yet pending.
    Mr. Perlmutter. Any thoughts, General?
    Lt. Gen. Stafford. Well, I agree with Mr. Young that Mr. 
Bridenstine has been out there really, you know, putting forth 
the rationale, the reasons, for the exploration, but we still 
have a lot of actions to go. And when I see this one 
architecture, I don't know how it was put together to have 
eight launches to do one landing. That is concerns me a great 
deal, sir.
    Mr. Perlmutter. I think, again, from just sitting up here, 
and being a Member of Congress, I mean, our responsibility is 
to provide funding so that the agency, as the lead of this--and 
I think it's going to be international in scope, and public-
private. It's going to require all of those things to maximize 
the success. But I'd love to have you two go with me, and I'll 
grab, you know, somebody over there, Dr. Babin, and we'll go 
from appropriator to appropriator to talk about this being the 
kind of thing that can bring a lot of people together, because 
it's so aspirational, if you will. And, with that, I'm going to 
yield back to the Chair, because I could go on forever on this 
thing.
    Lt. Gen. Stafford. May I add one thing to that?
    Chairwoman Horn. Of course.
    Lt. Gen. Stafford. You know, sir, over the years I've had 
so many people come up to me, said, the reason I went to 
college, I saw you fly--and your group fly Gemini, and Apollo, 
and I saw what you did, I wanted to be part of it, and----
    Mr. Perlmutter. That's right.
    Lt Gen. Stafford [continuing]. Or at least support part of 
it. I mean, there's literally hundreds of people said they went 
to college, and studied, and all this.
    Chairwoman Horn. Absolutely. Thank you very much. Thank 
you, Mr. Perlmutter, and thank you, General. The Chair 
recognizes Mr. Posey for 5 minutes.
    Mr. Posey. Thank you, Madam Chair, for holding this hearing 
on deep space exploration that involves going back to the Moon, 
and then to Mars, and for accommodating these two great, 
awesome witnesses that we have here to share with us today. To 
achieve the ambitious deadline of putting boots on the Moon in 
2024, I think that we all agree that we all must do everything 
we can to ensure that there's sufficient funding to do that. I 
think that's where the buck stops, will we have the money to do 
that? And I agree with our esteemed witnesses that both the 
Administration and Congress must continue to fully fund the 
necessary assets, such as Space Launch System, Orion crew 
exploration vehicle, exploration ground systems, Mobile 
Launcher II, and the Lunar Orbital Platform we refer to as the 
Gateway to ensure that we stay on track to meet those targeted 
launch dates.
    In addition to fully funding the critical space assets, I 
think we need to ensure safeguards are in place to protect the 
astronauts from radiation in deep space, as well as the other 
hazards that are inherent to such missions. And, with NASA's 
strong leadership, and a firm commitment from Congress, I think 
we can do that.
    The questions, General Stafford and Mr. Young, 10 years ago 
the National Academy of Science conducted a review of risk 
posed by radiation exposure during crewed deep space 
exploration. They evaluated shielding options, mitigation 
techniques, and recommended strategies for future missions. Do 
you think the state of science has changed since the last 
assessment, and, if so, would it be helpful to revisit the 
subject and seek further guidance or updates?
    Lt. Gen. Stafford. Well, even though I'm not a medical 
doctor, let me tell you the information here at the sea level--
our latitude. We receive approximately 2.--probably six 
millisieverts of radiation a year. In the Space Station, or in 
low Earth orbit, below the Van Allen Belts, you get about 6/10 
of a millisieverts a day. So, in other words, in 10 days, say 
on board the Space Station, you get equal to 1 year on the 
ground.
    Mr. Posey. Wow.
    Lt. Gen. Stafford. Now, for the 24 of us that flew beyond 
the Van Allen Belts, once you get out there, you get about 2.6 
millisieverts a day, so in 2-1/4 days, you get equivalent to a 
year on the ground. Now, from the study we did, we had the 
Department of Energy come in to us, and medical doctors from 
radiation expertise, and they used the term 16 grams per 
centimeter cubed. Well, I think--I'm Oklahoman, different--
inches per, you know, pound, so it equates to about 1 foot of 
water would protect you from all solar radiation, and you could 
use that 1 foot of water in, say, an inflatable, and recycle 
it. And you have to recycle the water. Just like you use 2.2 
pounds of oxygen a day, you need about 6 pounds of water a day. 
That water would be enough to shield you very well from the 
solar radiation. Now, cosmic radiation is a whole different 
ballgame, but that's not near as prevalent.
    Mr. Posey. OK. Mr. Young----
    Mr. Young. I don't have anything to add.
    Mr. Posey. Tough to top that one for sure. General 
Stafford, as someone who's actually flown a lunar landing 
module during Apollo, and I had the honor and pleasure to work 
as an inspector on the third stage of your rocket back in the 
day, you have unique insight as to what we need to be 
considering now as we begin to build a lunar landing module for 
Artemis. I wonder if you could identify the key lessons from 
the development of the Apollo lunar module that we need to 
incorporate into the current architecture? You know, may it be 
key safety testing, oversight, you know, requirements that are 
necessary for these complex missions that might stick out in 
your mind.
    Lt. Gen. Stafford. Well, you hit on a lot of them right 
there, as far as inspection oversight, but you want to keep 
things as simple as possible, even though it's a very complex 
subject to work with. And you can't let anything sneak up on 
you. And you have to have great quality in everything you do.
    As I pointed out, I don't--in my own opinion, and also what 
Mr. Cook said, that--I don't think that starting with eight 
launches to put a series of four small things together is going 
to be the right way to go.
    Mr. Posey. OK.
    Lt. Gen. Stafford. Let's take an example. The Space 
Station, it weighs about 900,000 pounds now, but yet nearly 30 
percent of that weight is in the coupling devices to keep it 
together.
    Mr. Posey. OK.
    Lt. Gen. Stafford. So you want to keep the things as simple 
as possible within the units. And if you have these four units, 
each one has to have an electrical power system, a reaction 
control system, a docking mechanism on them, all this, and a 
propulsion too. So versus just an Apollo, in the lunar module 
we had just one guidance system. That took care of the whole 
thing.
    Mr. Posey. Yes.
    Lt. Gen. Stafford. One RCS system.
    Mr. Posey. Well, that was a miracle, General, you know, 
almost a miracle. Thank you, Madam Chair. I yield back.
    Chairwoman Horn. Thank you, Mr. Posey. The Chair recognizes 
Mr. Olson.
    Mr. Olson. I thank the Chair, and welcome Mr. Young and 
General Stafford. General Stafford, as you know, on Monday our 
Nation celebrated Veterans Day, and you are an amazing veteran. 
I want to thank you first for your amazing service to our 
country, and especially 507 hours and 43 minutes in space on 
Gemini 6, Gemini 9, Apollo-Soyuz, and, as been mentioned over 
and over, Apollo 10. You all did everything to land on the Moon 
except for actually put the limb down. Got down there, I talked 
to Gene Cernan, he thought about shooting the approach, but 
guess what, the guys back in Florida did not properly fuel the 
LEM to have a landing come back, thank you. I know it's tough 
going out there because on the way out you had to catch 
something floating through the command module. I'll leave that 
to yourself to explain what happened.
    Also, General Stafford you all mentioned the power to 
motivate our young people, seeing human beings in space. I see 
it all the time back home. I grew up right in the shadow of the 
Johnson Space Center. I show kids, this is not to slam on the 
missions, but I show kids the Mars Rovers, which are great. We 
learn so much about Mars with those Mars Rovers. Then I show 
them Bruce McCandless, out there with the jetpack. Bruce 
McCandless, Rocket Man. Everybody wants to be Bruce McCandless. 
And so we can't put a value on that persona, we have to tap 
into that to go forward.
    You've chaired the ISS Advisory Committee now for the past 
couple years, and my question is, how can the ISS help us out 
going back to the Moon and going to Mars? And we're trying to 
extend that, how to make sure that happens? Also, going to the 
Moon, that was all us, all America. International Space 
Station, that's international. That great arm, that came from 
Canada. Russia has told our guys up there, cargo vehicles, 
manned vehicles, Soyuz vehicles, how about some international 
help going back to the Moon, and possibly to Mars?
    Lt. Gen. Stafford. Well, thank you very much, sir. Yes, I 
think international help can be there, but they also have to be 
on time.
    Mr. Olson. And pay.
    Lt. Gen. Stafford. And pay. The one thing--the Space 
Station--I'm very proud of what they've done. They've helped 
solve some of the--put us on the way of solving the problems. 
As I mentioned, you know, 2 pounds of air--2.2 pounds of air 
you use every day, and about 6 pounds of water, we are 
recycling the air, recycling the--we've learned how to do that 
now on the Space Station. We still have to increase the 
efficiency to get--but the Space Station also, we've learned 
now this--called the ARED, Astronaut Exercise Reactive Devices, 
like pumping iron in space. And with the proper diet, and also 
some pharmaceuticals, you can keep the muscle mass up, the red 
blood cells up, and everything else. So the Space Station has 
put us way up here as far as knowledge for long duration 
missions that can take us to Mars.
    Mr. Olson. And Gene Cernan, your crewmate there on Apollo 
10, echoed your comments about the best place to train for 
going to Mars is the Moon. As you mentioned, Moon is about 1/3 
of Earth's gravity. Also, we found out, since the Apollo 
missions, guess what's all over the Moon? Water. OK, so comment 
about how much going to the Moon, is that an important step to 
going back toward Mars? What can we learn by going back to the 
Moon that helps us get to Mars as quickly as possible, and 
safely as possible?
    Lt. Gen. Stafford. Well, it'll teach us on first working in 
deep space beyond the low Earth orbit. And, from that, again, 
the equipment, and how long, you know, the reliability of the 
equipment, what we need to do, and--it's going to be a whole 
series in which--I've listed here, sir. It'll take a while----
    Mr. Olson. Yes, the bible.
    Lt Gen. Stafford [continuing]. To go into it. Definitely. 
Trying to go to Mars, not going to the Moon, is really a no 
brainer not to do it.
    Mr. Olson. Question, Mr. Young. I'm concerned about the SLS 
for one reason. As Mr. Stafford mentioned, the vehicle he went 
to the Moon on was the Saturn V rocket, designed for one thing, 
take three people from here to the Moon and back, with the 
lunar module, and later missions with the lunar rover. OK, we 
built this rocket for one mission. The SLS is designed to go to 
deep space, so any concerns about just having a generic 
mission, as opposed to build this rocket, hit this exact 
mission? Adapting the SLS to going to Mars, maybe, which we're 
hoping it can do, but----
    Mr. Young. My observation is that SLS, you know, does have 
the capability to go to, you know, to support a deep space----
    Mr. Olson. Better.
    Mr. Young [continuing]. Such as Europa, but I think that, 
you know, my observation is that the focus of SLS has been a 
heavy-lift capability aimed primarily at being able to support 
a lunar and a Mars human mission, and in addition to that, it 
also has a capability which, my guess is the Saturn V would've 
had that capability also, to do missions that require heavy-
lift capability to minimize flight time, which is the Europa 
situation. So my observation, and I appreciate Tom's comment, 
is that I don't think that SLS has been compromised from its 
primary use of humans to the Moon and Mars.
    Mr. Olson. Thank you. General Stafford?
    Lt. Gen. Stafford. Let me add that, you know, in the 2010 
NASA authorizations say, start with a minimum, and the word is 
minimum, of 70 metric tons, to grow to a minimum of 130 metric 
tons. Now, 130 metric tons is just nearly what we had on the 
Saturn V. And you're sort of an odd duck sir, but it does have 
the capability to increase even beyond 130 metric tons----
    Mr. Olson. Right.
    Lt Gen. Stafford [continuing]. But you have to get that 
enhanced upper stage built, and go on it.
    Mr. Olson. Ms. Chairwoman, one final question for Mr. 
Stafford, because you went to the Naval Academy, and then 
joined the Air Force, so basically your experience there as a 
midshipman--as you know, in the next four weeks there's this 
big football game between Army and Navy. So, in your humble 
opinion, who's going to win that football game? Any idea?
    Lt. Gen. Stafford. Sir, I just could not forecast on that.
    Mr. Olson. I can for you. Go Navy, beat Army.
    Chairwoman Horn. General, he likes to stir up trouble 
around football games, you should probably know that. Although 
he has been wrong already this year. Thank you very much. 
Gentlemen, I think I have a few more questions, if you'll 
indulge us a little bit longer. I think--I want to express our 
gratitude for your wisdom, and candor, and all of the work that 
you've done. This has been incredibly informative, and I don't 
want to speak on behalf of everyone up here, but I think we've 
all thoroughly enjoyed it, and found it incredibly helpful. And 
there were a couple of other points raised in your early 
testimony that I'd like to follow up on just for a moment.
    Mr. Young, when you were talking about how we can 
streamline and increase the probability of success, you have 
experience, clearly, in government and industry, you've gone 
back and forth, and you've been there over attempts to 
streamline and improve systems, and acquisition. And, in your 
experience, and in your view, what can Congress do to ensure 
transparency in the Moon-Mars plan, and an acquisition approach 
that provides that consistency that we've talked about? 
Consistency, and also oversight and accountability over the 
course of a long-term program.
    Mr. Young. Few observations. First off, to the consistency, 
I think that one of the things that maximizes consistency is a 
high-quality plan, where all people have a strong appreciation 
of what's really being pursued. And so I think that, you know, 
that's probably--I guess I should really back up and say an 
unambiguous clear goal, coupled with a plan that is well-laid 
out, and is very clear, so that there's no real debate as to 
what it is that's trying to be accomplished.
    Relative to, you know, the overall process of--as I 
mentioned earlier, I'm a big advocate of using all the 
resources you have available, and what that really it says to 
me is that, you know, NASA's an incredible resource, and NASA 
should not be in the role of just oversight, or just simply 
standing back and allowing industry to make decisions that, in 
my view, should be NASA decisions. So I'm a real advocate of 
utilizing all the capabilities that exist, which says maximum 
use of NASA, but also recognizing that NASA, you know, is not a 
manufacturing, you know, is--NASA's not an industry, and we 
should maximize the use of industry.
    We touched on a little bit today, you know, there's a lot 
of discussion around, you know, commercial, and the new 
commercial, you know, paradigm. First off, I think that we 
should all applaud what the commercial people are doing. You 
know, I mean, it is terrific. But I think in an endeavor that 
is so challenging and complicated as this, we really shouldn't 
confuse it with trying to enhance commercial or not enhance 
commercial. So my view, in that regard, is all organizations, 
industrial organizations, that have a capability to contribute, 
competition should be open for them to compete, and the 
absolute best should compete, but they're competing to be part 
of a team led by NASA, and that the procurement should be 
consistent with that, and NASA really shouldn't be sitting in 
the back of the room, observing. They should be sitting in the 
front of the room, leading.
    Chairwoman Horn. Thank you very much, Mr. Young. Just a 
couple more questions. General Stafford, first of all, thank 
you again. It's truly an honor to hear your experience, and 
watch the way that your brain works, and being able to go over 
some of these really complex ideas, and boil it down for us. In 
your view, what are the top three actions that need to be taken 
now to structure and implement a Moon-Mars program for 
sustainability and success?
    Lt. Gen. Stafford. Chairwoman Horn, number one, has to be 
an adequate plan, as Mr. Young has pointed out, a real adequate 
plan. Number two, we have to have the funding to go with it. 
But number three, we have to have the talent to manage this, 
and that's the one thing that made Apollo go, we had the 
talent, and really made Gemini go. In Gemini we did 10 missions 
in 20 months, which was a real tremendous pace. But when we 
went to Apollo, it was even faster. The first Apollo flight, I 
was a backup commander on that. We did, in just 9 short months, 
five missions, and three of those were to the Moon, and three 
of them had two spacecraft each on them. And we carried out, in 
9 months, and landed on the Moon. Five missions, 9 months and 
we flew on the giant Saturn V. So you have to have then plan, 
the resources, but you have to manage it. And this is where Mr. 
Young pointed out, and I pointed out about how Bellcom came in 
and did that, and other people.
    Chairwoman Horn. Thank you very much. I know I'm a bit 
over, but my final question is--well, I have many more, but I 
won't keep you here all day--is--you mentioned that--something 
that we haven't come back to, we touched on a little bit, 
General Stafford and Mr. Young, you both mentioned it, 
perspectives on the role of a Gateway in a Moon to Mars 
program, and how important is the Gateway, and is there a role 
for international participation here?
    Mr. Young. I think that I do not really see a required role 
for the Gateway in the lunar program. I do see a role for the 
Gateway in testing habitat modules, et cetera, for Mars 
activity. So when I look at this full plate that I talk about, 
you know, gateway would be one of the areas that, if I were 
there, that I would look carefully at as to what are the real 
contributions of it to the overall success of the program. So I 
guess what I'm saying is that what I know from the outside 
looking in, gateway--there's not a compelling argument, to me, 
for the gateway for the lunar program. It is to have capability 
to test, close to Earth, some of the critical components for 
the Mars mission, so it would play a role in that regard.
    Chairwoman Horn. Thank you. General Stafford?
    Lt. Gen. Stafford. Well, one thing on the present plan, 
they have cycling into this orbit called a near rectilinear 
halo centric orbit, which has a period of 7 days. And so you 
have to be able to get to that. Now, I performed the first 
rendezvous in space ever, and around the Earth, you go around 
about 89 minutes, you could call it close to an hour and a 
half. And, from that, we started out using a--transfer to 
demonstrate we had big--and it turns out we used a Russian 
technique. It was in a published version that came to me, and 
it was all in Russian, but--I didn't understand one word, but I 
understood the orbital diagrams, and it said rendezvous using 
the theory of Co-Elliptic Concentric Orbits, and that's 
basically what we did, only we simplified the end of it.
    We'd have an inertial line of sight, in other words, with 
respect to the stars. That's inertially fixed. And so it's like 
flying an instrument landing system, for those of you that are 
pilots. You have--kind of bars, and so if the bar goes up, you 
pull back on the stick, and go up here, and you just thrust up. 
So it became very simple for a pilot to use. And at a certain 
angle you thrust toward it for the terminal phase. And so I did 
the first--one Gemini 9 I did three different types of 
rendezvous, and one of them I said don't ever do again unless 
it's an emergency. That's an overhead ballistic intercept 
coming down. And then I did the first rendezvous around the 
Moon. And so--and then also I did the first international--I've 
done, because of assignments, more rendezvouses than anybody in 
the world. And I think I understand it very well.
    I have some serious questions about the rendezvousing out 
in deep space. I won't say it's impossible, but I haven't yet 
seen what it--the simulations of it, or how you would do it, 
because we use the breaking out from--and the darkness, and the 
sunlight, and the stars as a background, and a target, and all 
this. And out in deep space it would be a different--of course, 
you could have--now star trackers that can help you. But we 
could launch about anytime off the Moon and get back, at least 
once every 2 hours, because orbital period is 2 hours around 
the Moon. And here 7 days--you can't launch every hour. And 
it's--the only way you're going to change things is using--
instead of orbital mechanics, you're going to be using a lot of 
propulsion. So I don't know the answer to it. So--I'm just 
saying I've got questions.
    I want to say--let me add one other thing. They use the 
word ``commercial.'' In Apollo, everything we flew on, 
everything we did, was commercial. It was all done by 
commercial companies. NASA did not build a thing. And maybe a 
few little hand tools were used on the Moon, and that was it. 
And--so everything was commercial, but yet NASA, as Mr. Young 
pointed out, had to lead, and had to show the way to go. And 
this--and what really worked out was--on the Saturn V, how good 
it did, and the Von Braun did an unbelievable job. Also the way 
NASA's team recovered after the tragic fire. But NASA had to 
lead, and it was commercial.
    Chairwoman Horn. Thank you very much. Truly it is an honor 
to hear from both of you. Your experience, your expertise, and 
your insights are critical, and I think anybody that wasn't 
here today absolutely missed out, and I hope they watch the 
hearing later.
    And before we bring the hearing to a close, I want to 
again, I think on behalf of all of us, express our gratitude 
for both of you, so thank you. And I should remind everyone the 
record will remain open for 2 weeks for additional statements 
from the Members, or any additional questions that the 
Committee may ask of witnesses, if you would do us that favor. 
And the witnesses are now excused, and the hearing is 
adjourned. Thank you.
    [Whereupon, at 3:37 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
